No. 19-241

In The Supreme Court of the United States

UMB BANK, N.A., et al,

Applicants,
v.
LANDMARK TOWERS ASSOCIATION, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS

I, Nelson Boyle, counsel for respondent and a member of the Bar of this
Court, certify that the BRIEF IN OPPOSITION filed on this date in the above-
captioned case contains 0&8 words, excluding the parts of the petition

exempted by Rule 33.1(d).

Respectfully submitted, \) &

Nelson Boyle
Brian K. Matise
Counsel of Record
Burg Simpson
Eldredge Hersh & Jardine, P.C.
40 Inverness Drive East
Denver, Colorado 80112
(803) 792-5595
Counsel for Landmark Towers Assn.

October 22, 2019
No. 19-241

In The Supreme Court of the United States

UMB BANK, N.A., et al,

Applicants,
v.
LANDMARK TOWERS ASSOCIATION, INC.,
Respondent.

Certificate of Service

 

I, Nelson Boyle, a member of the Bar of this Court, certify that on October
22, 2019, I caused the three physical copies of the Brief in Opposition in the above-
captioned case to be served upon the following counsel by commercial carrier
next-day delivery and caused an electronic version of the document to be

transmitted to the following counsel by electronic mail:

Neil L. Arney Kimberly A. Bruetsch
Mia Della Cava Robinson Waters & O’Dorisio, P.C.
Kutak Rock 1099 18th Street, Suite 2600
1801 California Street, Suite 3000 Denver, Colorado 80202
Denver, Colorado 80202-2626 Counsel for the Marin Metropolitan
Counsel for Petitioners District

) submitted,

Nelson Boyle

Brian K. Matise

Counsel of Record

Burg Simpson

Eldredge Hersh & Jardine, P.C.

40 Inverness Drive East

Denver, Colorado 80112

(303) 792-5595

Counsel for Landmark Towers Assn.

October 22, 2019
